No.

IN THE
SUPREME COURT OF THE UNITED STATES

MARK FRENCH - PETITIONER
VS.
FRANK B. BISHOP, Jr.,
MARYLAND ATTORNEY GENERAL,"etal"
RESPONDENT(S)
PROOF OF SERVICE
I Mark French, do swear or declare that on this date, May
19,2021, as required by Supreme Court rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel , and on every other person
required to be serviced, by depositing an envelope containing the
above documents in the United States mail properly addressed to
each of.them and with first class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5614, Department of
justice, 950 Pennsylvania Ave., N.W., Washington, D.C. 20530I declare under penalty of perjury that the foregoing is true and
correct.
S
Executed on May 19,2021.
Mark Frecnh
(signature)

-Stf-zj

CERTIFICATE OF FILING
I Mark French, 241-381, certify that (1) I am involuntarily
confined at the Dept. Of Corrections. (2) I have no direct access
to the U.S. postal service or permitted means of electronically
filing the attached pleadings or papper. (3) On May.19,2021 at
about 03:30 pm I personally deposited the attached petition the
mailing in a receptacle designated by this facility for outgoing
mail box. (4) the items was mailable form and had the correct
postage on it.
I solemnly affirm on this^l9th day of May. 2021 under the penalty
of perjury a
up
s&hal knowledge that forgoing statements
are true. //
2_- Mark French Date S'/9-2)
7?

^fark^reffch 241-381

